                                                           IG-02-030




AUDIT
                           NASA’S PROPOSAL EVALUATION PROCESS
REPORT
                                      September 30, 2002




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

FAR            Federal Acquisition Regulation
FY             Fiscal Year
ISS            International Space Station
JOFOC          Justification for Other Than Full and Open Competition
MMI            Marshall Management Instruction
MWI            Marshall Work Instruction
RFP            Request for Proposal
SBA            Small Business Administration
SOW            Statement of Work
                                   September 30, 2002
W


TO:            H/Assistant Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on NASA’s Proposal Evaluation Process
               Assignment Number A-01-045-00
               Report Number IG-02-030

Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response has been incorporated into the
body of the report. The corrective actions planned and completed for the
recommendations are responsive. Management’s actions are sufficient to close
recommendations 1 and 3 for reporting purposes. Recommendation 2 will remain open
for reporting purposes until corrective actions are completed. Please notify us when
action is completed on the recommendation, including the extent of testing performed to
ensure corrective actions are effective. The final report distribution is in Appendix E.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. Lorne Dear, Program Director for Procurement
Audits, at (818) 354-5634, or Ms. Mary S. Anderson, Auditor-in-Charge, at
(301) 286-8137.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                   2

cc:
HQ/AI/Assistant Deputy Administrator
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/JM/Director, Management Assessment Division
GSFC/100/Director, Goddard Space Flight Center
JSC/AA/Director, Johnson Space Center
MSFC/DA01/Director, Marshall Space Flight Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Adequacy of Technical Analyses, 2

     Finding B. Adequacy of Screening for Noncompetitive Contracts, 9

Appendix A - Objectives, Scope, and Methodology, 11

Appendix B – Contracts Without Adequate Technical Analyses, 13

Appendix C – Prior Audits and Other Reviews, 14

Appendix D - Management’s Response, 15

Appendix E – Report Distribution, 18
                            NASA Office of Inspector General

IG-02-030                                                                         September 30, 2002
 A-01-045-00

                          NASA’s Proposal Evaluation Process

                                       Executive Summary

Background. In fiscal year (FY) 2000, NASA spent about $12.5 billion (86 percent) of
its $14.5 billion budget on contract awards. Because of the significant amount spent for
contracting, effective analyses of proposals are important to ensure that NASA obtains
fair and reasonable prices.

Proposal evaluation is an assessment of the contractor’s proposal and ability to perform
the prospective contract successfully. An agency evaluates competitive proposals, then
assesses the proposal’s relative qualities against factors specified in the solicitation.
Agencies may conduct proposal evaluations using any rating method or combination of
methods. For each proposal, the relative strengths, deficiencies, significant weaknesses,
and risks should be documented in the contract file.

Federal Acquisition Regulation (FAR) Part 15, “Contracting by Negotiation,” prescribes
policies and procedures governing competitive and noncompetitive1 negotiated
acquisitions. For competitive contracting, FAR Part 15 procedures minimize the
complexity of the solicitation, the evaluation, and the source selection decision. Further,
the procedures establish a process designed to foster an impartial and comprehensive
evaluation of the offerors’ proposals. For noncompetitive contracting, the technical
analysis2 is critical in helping NASA to ensure it obtains a fair and reasonable price. The
contracting officer may request that the technical analysis be performed by personnel,
internal or external to NASA, who have specialized knowledge, skills, experience, or
capability in engineering, science, or management. For the technical analysis, an
assessment is made of the proposed types and quantities of materials, labor, and other
associated factors set forth in the proposal in order for the technical evaluator to
determine the need for and reasonableness of the proposed resources.

Some NASA Centers have local instructions that supplement the FAR. For example,
Johnson Space Center (Johnson) has established Johnson Procurement Instruction
Subpart 1819.8, “Contracting with the Small Business Administration,” which requires
contracting officers or contract specialists to perform screening for potential small

1
  For a competitive acquisition, all responsible prospective contractors are permitted to compete. For a
noncompetitive acquisition there is only one responsible prospective contractor to satisfy agency
requirements.
2
  A technical analysis is an assessment of the offeror’s ability to accomplish the technical requirements.
The technical analysis determines whether the proposed resources, labor, and other direct costs are
reasonable and reflective of the proposed technical approach.
business contractors that may be technically capable of performing contract
requirements. The screening procedures are performed prior to issuance of the request
for proposal (RFP). 3

Objectives. The overall audit objective was to determine whether NASA contracting
officers effectively evaluated proposals on cost-type contracts and noncompetitive fixed-
price contracts. We performed the audit at Goddard Space Flight Center (Goddard),
Johnson, and Marshall Space Flight Center (Marshall). Specifically, we determined
whether the contracting officers:

    •   used adequate price and cost analyses in accordance with the FAR requirements
        applicable to the procurement action and

    •   obtained technical analyses needed to adequately evaluate proposed costs.

Details on our audit scope and methodology are in Appendix A.

Results of Audit. NASA contracting officers at Johnson and Marshall can more
effectively evaluate proposals on cost-type contracts and noncompetitive fixed-price
contracts.4 The contracting officers used price and cost analyses in accordance with the
FAR requirements applicable to the procurement action but had not obtained adequate
technical analyses to effectively evaluate proposed costs. Specifically, Johnson and
Marshall contracting officers did not obtain and document complete technical analyses
for 7 (16 percent) of 45 contracts reviewed. As a result, NASA had reduced assurance
that contractors’ abilities to accomplish the technical requirements were adequately
assessed or that fair and reasonable prices were obtained on the seven contracts totaling
about $6.3 million (Finding A).

In addition, contracting officers at Johnson issued two of three Small Business
Administration (SBA) contracts without conducting adequate screening to competitively
select a technically capable company from 8(a)5 contractors. As a result, NASA did not
have adequate assurance that it received fair and reasonable prices and may have denied
other potential small business offerors the opportunity to compete for procurements
(Finding B).

Recommendations. We recommended that (1) the Johnson and Marshall procurement
officers direct contracting officers to obtain and document technical analyses in
accordance with the FAR and Center instructions, (2) the Marshall procurement officer
revise and update Center instructions and forms for performing technical analyses, and

3
  A request for proposal is used in negotiated acquisitions to communicate Government requirements to
prospective contractors and to solicit proposals.
4
  We did not find any deficiencies in 26 contracts reviewed at Goddard.
5
  The SBA enters into all types of contracts with other agencies and awards subcontracts to firms eligible
for participation. The subcontractors are referred to as “8(a) contractors,” which are owned and operated
by socially and economically disadvantaged individuals and are eligible to receive Federal contracts under
the SBA 8(a) Business Development program.


                                                    ii
(3) the Johnson procurement officer direct contracting officers to comply with the Center
instruction for conducting small business screening for noncompetitive contract
requirements.

Management’s Response. Management concurred with all the recommendations.
Marshall procurement personnel have been reminded to request additional details for
inadequate technical analyses. Additionally, the training course conducted by Marshall
contracting officers has been revised to include instruction for placing more emphasis on
quality technical evaluations.

The Office of Procurement at Johnson has emphasized the requirements for technical
analyses in a Procurement Forum. Attendance for the forum was mandatory for all
procurement staff. Johnson’s policy for screening to competitively select a technically
capable small business contractor goes beyond the FAR requirement. Additionally, the
Small Business Specialist is providing individual training sessions, and continued
emphasis will be given in the Procurement Forum to ensure that the Center policy is
followed.

Evaluation of Management’s Response. We consider management’s planned or
implemented actions responsive to the recommendations.




                                            iii
Introduction

Effective analyses of contractors’ proposals are critical to ensure that NASA effectively
uses funds. Contracting officers must analyze contractors’ proposals to develop a
negotiation position on pricing and to ensure that the final negotiated price is fair and
reasonable.

The FAR states that the contracting officer is responsible for evaluating the contractor’s
price for reasonableness. The complexity and circumstances of each acquisition should
determine the level of detailed analysis required. Contracting officers should use a price
analysis6 when cost or pricing data7 are not required and to verify that the overall price
offered is fair and reasonable. Contracting officers should also use a cost analysis8 to
evaluate the reasonableness of the separate cost elements and profit when cost or pricing
data are required. To determine the need for and reasonableness of the proposed
resources, contracting officers request technical analyses of the proposed types and
quantities of material, labor, and other factors in a contractor’s proposal.

Some NASA Centers have instructions that supplement the FAR requirements. Johnson
instructions require contracting officers to ensure that all critical areas (including labor
category/skill mix and material types and quantities) of technical analyses are completed.
Johnson also requires contracting officers to screen potential small business contractors
for those that may be technically capable of performing the contract requirements.
Screening procedures are part of the proposal evaluation process and are performed
before the RFP is issued.

Marshall instructions provide guidance to contracting officers for requesting technical
analyses and to technical evaluators for performing technical analyses. The instructions
require contracting officers to prepare written technical requests that clearly identify the
specific proposal areas to be reviewed by the technical evaluator. The technical evaluator
is required to perform a detailed review of the identified proposal areas.

We reviewed a total of 71 cost-type and fixed-price contracts9 at Goddard, Johnson, and
Marshall with obligations totaling about $367.2 million in FY 2000.




6
  A price analysis is the process of examining and evaluating a proposed price without evaluating the
separate cost elements.
7
  Cost or pricing data are all the facts that, as of the date of price agreement, prudent buyers and sellers
would reasonably expect to significantly affect price negotiations. Federal Acquisition Circular 97-20,
dated October 11, 2000, increased the FY 2000 cost or pricing data threshold of $500,000 to the current
threshold of $550,000.
8
  A cost analysis is the review and evaluation of the separate cost elements and profit in an offeror’s
proposal (including cost or pricing data or other information) and the application of judgment to determine
how well the proposal costs represent what the cost of the contract should be.
9
  We reviewed 26 contracts at Goddard, 20 at Johnson, and 25 at Marshall.
Findings and Recommendations

Finding A. Adequacy of Technical Analyses

Contracting officers awarded contracts without obtaining adequate technical analyses to
assist in contract negotiations. Specifically, for the 20 contracts10 we reviewed at
Johnson and the 25 contracts reviewed at Marshall, contracting officers awarded a total
of 7 contracts (see Appendix B) without obtaining documented, complete, and timely
technical analyses as required by the FAR and Johnson and Marshall instructions. For
the seven contracts, technical analyses were oral, not completed, partially completed, or
not completed before negotiations but after contract award. These technical analysis
deficiencies occurred because contracting officers accepted (1) incomplete technical
analyses from technical evaluators and (2) oral discussions with evaluators as the bases
for contract negotiations. Additionally, the contracting officers did not use written
requests for technical analyses that would have assisted in obtaining complete analyses.
As a result, NASA had reduced assurance that the contractors’ ability to accomplish the
technical requirements was adequate or that fair and reasonable prices were obtained on
the seven contracts totaling about $6.3 million.

FAR and Center Requirements

FAR Requirements. FAR Part 15.404-1(e)(2), “Proposal analysis techniques,” states
that, at a minimum, the technical analysis should examine the types and quantities of
material and the need for the types and quantities of labor hours and labor mix. Further,
the analysis should include any other data that may be pertinent to (1) an assessment of
an offeror’s ability to accomplish the technical requirements or to (2) the cost or price
analysis of the service or product being proposed. Additionally, Johnson and Marshall
instructions supplement the FAR requirements.

Johnson Procurement Requirements. Johnson Procurement Instruction Subpart
15.404-1(e), “Requirement for Technical Analysis,” supplements the proposal analysis
techniques set forth in FAR 15.404-1. The Instruction requires contracting officers to
ensure that all critical areas of the technical analysis have been completed. The analysis
shall address quantitative and qualitative aspects of the proposal such as labor hours,
labor category and skill mix, other direct costs, and material types and quantities. For
procurements under $10 million, a Technical Analysis Report is required to document the
results of the technical analysis, and the report becomes part of the background of the
prenegotiation position memorandum. The report should comment on whether the
offeror is satisfying the requirements of the statement of work.11 The contracting officer




10
  Three of the 20 contracts were SBA contracts, which are addressed further in Finding B.
11
  The most important feature of the report is the rationale that the technical evaluator either accepts the
proposed resource elements as written or provides for exceptions taken to those elements.


                                                       2
may modify the Technical Analysis Report format but must still ensure that the technical
analysis is adequate.12 The complexity and circumstances of procurements under $10
million determine the level of detail of the technical analysis.

Johnson Announcement 00-016, “Technical Analysis (Evaluation of) Contract/Change
Proposals,” states that a complete, comprehensive, and timely technical analysis can
provide information that is essential in establishing a fair and reasonable price or cost and
in obtaining a quality product or performance. The contracting officer shall request the
analysis in writing in order to focus and tailor the technical analysis. The written request
shall identify specific areas of the proposal where special emphasis should be placed.
Effective technical analyses are essential in helping the Center to meet cost, schedule,
and technical objectives. Technical reviewers must provide the technical analyses in a
timely manner and ensure that they meet the basic requirements requested by the
contracting officer.

Marshall Procurement Instructions. Marshall Work Instruction (MWI) 5100.1,
Chapter 2.5.2, “Procedures for Technical Evaluations (dated August 8, 2001),” requires
contracting officers to submit a written technical analysis request to the Marshall element
initiating the procurement action.13 The written request must clearly identify the specific
proposal elements to be evaluated and include instructions related to definitive
supplemental or special information, if required.

Marshall Form 3409, “Request for Technical Evaluation (dated February 1973),” requires
the technical reviewer to look at the proposal resource requirements in detail and to
translate the requirements into labor effort and material requirements in order for the
technical reviewer to arrive at a conclusion that a contractor’s proposed resources are
reasonable. Additionally, Marshall Form 3409 contains areas and categories to be
evaluated during the technical analysis.

Adequacy of Technical Analyses

For the 45 contracts we reviewed at Johnson and Marshall, contracting officers did not
obtain adequate technical analyses for the 7 (16 percent) contracts discussed below and
shown in the following table:




12
   Some technical evaluators submitted their results to contracting officers in the form of an email. The
email is acceptable if it examines the types and quantities of material and the need for the types and
quantities of labor hours and skill mix and if it includes any other information that may be relative to
assessing the offeror’s ability to perform (that is, the email should meet all the requirements of the
Technical Analysis Report).
13
   Before issuance of MWI 5100.1, instructions for technical analyses were contained in instruction
MSFC-P06-1-CO3, “Procurement Initiators Guide,” which superceded Marshall Management Instruction
5150.3, “Technical Evaluation of Proposals,” on February 19, 1998.


                                                    3
                                  Inadequate Technical Analyses
                            Technical Analyses               Inadequate
                                                                                            Percent
                                Reviewed                  Technical Analyses
                                                                                             (b/a)
         Center                    (a)                           (b)
         Johnson                       20                           4                          20
         Marshall                      25                           3                          12

          Total                        45                           7                          16


Johnson Contracts Reviewed. Contracting officers at Johnson did not follow the FAR
and Johnson procurement instructions in obtaining complete technical analyses for 4 of
the 20 contracts reviewed:

     •    One contract was for technical assistance, maintenance, and support for the Space
          Program Integrated Contract Environment database. The contract award amount
          was $1.2 million. The contracting officer did not obtain a complete Technical
          Analysis Report. Instead, the contracting officer accepted an incomplete written
          technical analysis of proposed travel, material, and subcontract costs. For
          example, the technical evaluator’s written assessment of material was “Materials
          proposed are considered to be reasonable.” The assessment should have stated
          whether the proposal materials were in the correct quantities and were the type
          needed to complete the contract. The contracting officer told us that he believed
          oral discussions with the technical evaluator were an adequate basis on which to
          negotiate the contract. Lacking a complete technical analysis, the Agency was
          not assured that its negotiation position was sound and supportable.

     •    Another contract was for the continuation of technical support for software used
          by the X-38 project.14 The contract award amount was $814,795. The
          contracting officer did not obtain a complete Technical Analysis Report. Instead,
          the contracting officer accepted an emailed technical analysis from the technical
          evaluator that addressed only labor costs and did not address other quantitative
          and qualitative aspects of the proposal, such as material and other direct costs that
          require analysis in accordance with the Johnson Procurement Instruction. The
          contracting officer did not request a more detailed and substantive analysis from
          the technical evaluator. As a result, the contracting officer did not have sufficient
          information (1) to assess the contractor’s ability to accomplish the technical
          requirements and (2) to develop a prenegotiation position.



     •    A third contract was for the purchase of data acquisition units in support of the

14
  The X-38 is a crew-return vehicle for use in the event of crew injury or illness, International Space
Station failure, or Space Shuttle unavailability.


                                                      4
         X-38 project. The contract award amount was $552,536. The contracting officer
         did not obtain a Technical Analysis Report. Instead, the contracting officer
         accepted an email message from the technical evaluator stating that the proposed
         hardware met all the requirements of the statement of work (SOW).15 The email
         message stated only that “the proposed hardware meets all of the requirements of
         our SOW,” and did not address labor and other costs related to the contract.
         Consequently, the contracting officer did not have sufficient quantitative and
         qualitative information needed to assess the contractor’s ability to accomplish the
         technical requirements or to develop a sound prenegotiation position.

     •   A fourth contract was for scientific and engineering analysis support to the
         International Space Station (ISS). The contract award amount was $921,544.
         The contracting officer did not obtain a Technical Analysis Report. Instead, the
         contracting officer accepted an oral technical analysis from the technical
         evaluator. No written analysis existed of labor skill mix, material, and travel
         costs. The complexity of the ISS program and the many challenges NASA has
         faced in controlling the cost and schedule of the ISS program increase the need
         for a technical analysis that is thorough, complete, and documented in order for
         the technical evaluator to determine the need for and reasonableness of proposed
         resources. The contracting officer’s technical representative subsequently
         prepared a written technical analysis on July 20, 2001, after our inquiry and
         review of the contract file and after contract negotiations had been completed.
         However, the contract had been awarded on October 1, 2000. Further, the
         analysis was not in the required Technical Analysis Report format.

The most recent NASA Procurement Management Survey report at Johnson16 also
identified deficiencies in technical analyses. The report stated, in part, “many
prenegotiation position memorandums … relied on technical analyses that were of
marginal quality, failed to address all areas of the cost proposal and lacked detailed
analysis.” The report also stated that the “types of cost and quantities other than for
direct labor were often given a cursory review.” In addition, the report stated that no
evidence existed to show that contracting officers returned insufficient analyses to
technical evaluators to obtain a more detailed and substantive analysis.

Marshall Contracts Reviewed. Contracting officers at Marshall did not follow FAR
and Marshall procurement instruction procedures either for using written requests for
technical analyses or for obtaining written analyses on 3 of 25 contracts reviewed, as
discussed below:




15
   A statement of work is a specific description to contractors, suppliers, or vendors of the goods, services,
research, products, and other items that an agency needs to purchase.
16
   The NASA Office of Procurement conducted a Procurement Management Survey at Johnson from
February 28 through March 10, 2000.


                                                       5
     •   Two contracts were for off-site leased space in support of the Center Operations
         Directorate. The contract award amounts were $1.3 million and $532,488. The
         contracting officer did not request, in writing, technical analyses of designated
         elements of the contractors’ proposals. During our review of the contract files,
         we found no written technical analyses or any other type of written support to
         indicate that technical analyses had been requested and performed. The
         contracting officer told us that technical analyses were not performed due to the
         urgent nature of the acquisitions and the short turnaround time for award. After
         our file reviews and discussions in October 2001, the Deputy Manager of the
         Facilities Engineering Department prepared technical analyses that we received in
         November 2001. The analyses were dated September 29, 2000, --the date of
         contract awards--even though they were prepared a year after negotiation and
         award of the contracts. A written analysis prepared after contract award does not
         aid the contracting officer either in establishing a supportable prenegotiation
         position to ensure that NASA receives the best value for its contracting dollars or
         in negotiating a fair and reasonable price.

     •   A third contract was for off-site office space to support the Integrated Financial
         Management Program. The contract award amount was $1 million. The
         contracting officer did not request, in writing, technical analyses of designated
         elements of the contractor’s proposal. The contract file did not contain a
         technical analysis. The contracting officer stated that a technical analysis was not
         performed because of time constraints to expedite the award of the acquisition.
         Consequently, NASA was not assured that a fair and reasonable price was
         obtained to lease the office space.

The most recent NASA Procurement Management Survey report at Marshall17 also
identified deficiencies in technical analyses. The report states that numerous contract
files did not contain technical analyses. The report also states that technical analyses
“lack sufficient detail and very little analysis could be located in several contract files.”

Written Technical Requests

Contracting officers at Johnson and Marshall did not obtain adequate technical analyses
because the contracting officers did not use written requests for evaluation to ensure that
the necessary elements were covered in the analyses. The contracting officers at Johnson
did not request in writing that specific areas of the proposals be evaluated and did not
return inadequate analyses to technical evaluators. The contracting officers instead
accepted incomplete emailed analyses and oral comments as adequate bases on which to
negotiate four of the contracts. Because contracting officers did not provide written
requests for analyses, evaluators either were not aware of the elements to be covered in a
technical analysis or believed that a detailed technical analysis was not necessary because
the contractor had been awarded a previous contract.

17
 The NASA Office of Procurement conducted a Procurement Management Survey at Marshall from
April 23 through May 4, 2001.


                                               6
The contracting officers at Marshall did not provide written requests for written technical
analyses or specify elements to be included in the evaluation for three questioned
contracts. The contracting officers stated that the three contract files did not contain a
written technical analysis due to the urgent nature of the acquisition and the short
turnaround time for award. Marshall Form 3409 allows contracting officers to request
specific areas and categories to be evaluated during a technical analysis. Marshall
procurement officials stated that use of Form 3409 was optional. Marshall’s current
instruction, MWI 5100.1, Chapter 2.5.2, requires a written request for technical analyses,
but the instruction does not reference Form 3409, which is in use. Further, Form 3409
references a cancelled instruction. The most recent NASA Procurement Management
Survey report at Marshall stated that Form 3409 had been used to request technical
analyses. MWI 5100.1, Chapter 2.5.2, should be amended to reference Form 3409, and
Form 3409 should be revised to reference current Marshall technical analysis instructions
because Marshall plans to continue optional use of the form to request technical analyses.

Reasonableness of Proposed Resources and Prices

NASA’s ability to determine the reasonableness of contractors’ proposed resources and
prices were reduced because of a lack of complete written technical analyses. NASA
contracting officers at Johnson and Marshall awarded seven contracts, totaling $6.3
million, without having adequate written technical analyses prior to negotiations. As a
result, the contracting officers did not have sufficient data to assess the contractors’
ability to accomplish the technical requirements or to establish strong prenegotiation
positions based on the cost or price analysis of the service or product proposed.

Recommendations, Management’s Response, and Evaluation of
Response

1. The Procurement Officers at Johnson and Marshall should direct contracting
   officers to obtain and document technical analyses in accordance with the FAR
   and Center instructions.

Management’s Response. Concur. The Office of Procurement at Johnson is now
requiring all procurement staff to attend a Procurement Forum emphasizing the
requirements for technical analyses. The forums and briefings are available on-line for
future reference. At Marshall, contracting officers are conducting contracting officer’s
technical representative training. The training has been revised to place more emphasis
on requesting quality technical evaluations. Marshall procurement personnel were
reminded to request additional details when technical evaluations are inadequate.

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. We consider the recommendation resolved, dispositioned, and closed
for reporting purposes.




                                             7
2. The Procurement Officer at Marshall should amend MWI 5100.1, Chapter 2.5.2,
   to reference the use of Form 3409 to request technical analyses and should
   update the form to reference MWI 5100.1.

Management’s Response. Concur. Marshall has updated its Form 3409 to reference
MWI 5100.1. Marshall plans to amend MWI 5100.1, Chapter 2.5.2 to state that MSFC
Form 3409 may be used as the written request for a technical evaluation.

Evaluation of Management’s Response. Management’s comments are responsive to
the recommendations. The recommendation is resolved but will remain undispositioned
and open until Marshall amends MWI 5100.1, Chapter 2.5.2 to state that MSFC
Form 3409 may be used as the written request for a technical evaluation. Marshall
updated Form 3409 before completion of the audit.




                                         8
Finding B. Adequacy of Screening for Noncompetitive Contracts

Contracting officers at Johnson issued two of three SBA contracts without conducting
adequate screening to competitively select a technically capable company from 8(a)
contractors. This occurred because Johnson contracting officers believed FAR 19.805,
“Competitive 8(a),” exempted them from screening small business contractors for non-
competitive requirements under $3 million. Consequently, contracting officers did not
comply with the Johnson instruction that requires screening. As a result, NASA did not
have adequate assurance that it received fair and reasonable prices for the contracts that
totaled about $2.1 million. In addition, NASA may have denied other potential small
business offerors the opportunity to compete for procurements.

FAR and Center Requirements

FAR Requirements. FAR 19.805-1(a), “Competitive 8(a),” states that an acquisition
offered under the SBA 8(a) Business Development program shall be awarded on the basis
of competition limited to eligible 8(a) firms if there is reasonable expectation that at least
two eligible and responsible 8(a) firms will submit offers and the anticipated total value
of the contract, including options, will not exceed $3 million.

Johnson Procurement Instruction. Johnson Procurement Instruction Subpart
1819.804, “Evaluation, offering and acceptance,” requires that contracting officers
conduct 8(a) screening for noncompetitive requirements under $3 million to select a
suitable 8(a) vendor for the acquisition. The screening shall consist of the following six
actions:

   •   developing a potential 8(a) source list,
   •   schedule 8(a) companies for capability presentations,
   •   conduct screening presentations,
   •   select an 8(a) company for the requirement,
   •   develop detailed technical areas of emphasis, and
   •   develop past performance areas of emphasis.

Screening for Noncompetitive Contracts

At Johnson, we reviewed three noncompetitive SBA contracts. One contracting officer
for contract NAS9-00107 screened six vendors before awarding a contract for $1.2
million to support the Space Program Integrated Contract Environment database.
Contracting officers did not conduct screening for the following two contracts totaling
$2.1 million:

   •   Contract NAS9-00046 for $1.2 million to upgrade the fire detection and alarm
       systems in Center Building 30L.




                                              9
   •   Contract NAS9-00073 for $882,000 to supply and install computer processing
       units and flat screen monitors for the computer upgrade requirement of the
       Mission Control Center at Johnson.

The contracting officers did not develop potential 8(a) source lists, schedule 8(a)
companies for capability presentations, or conduct screening presentations because they
believed FAR Part 19.805-1(a)(2) exempted them from screening 8(a) contracts under
$3 million. The contracting officers were not aware of Johnson Procurement Instruction
Subpart 1819.804 because the procurement management officials had not emphasized
complying with the Center instruction for 8(a) acquisitions under $3 million.

Benefits of Screenings

Although FAR 19.805-1(a)(2) does not require competition for acquisitions under
$3 million, the Center instruction states that the contracting officer or contract specialist
will conduct 8(a) screening for noncompetitive requirements under $3 million to select a
suitable 8(a) vendor for acquisition. Johnson established the Center instruction to (1)
provide opportunities to all potential 8(a) contractors, (2) promote competition, and (3)
provide instructions for contracting officers for 8(a) acquisitions under $3 million. The
screenings identify potential 8(a) contractors that are technically capable of performing
the contract requirements.

Reasonableness of Proposed Price

NASA does not have adequate assurance that it received fair and reasonable prices
because Johnson contracting officers did not perform the screening actions and may,
therefore, have denied other potential small business offerors the opportunity to compete
for procurements.

Recommendation, Management’s Response, and Evaluation of
Response

3. The Procurement Officer at Johnson should direct contracting officers to comply
   with instruction JPI 1819.804, “Evaluation, offering and acceptance,” for
   conducting small business screening for noncompetitive contract requirements.

Management’s Response. Concur. The Small Business Specialist at Johnson is
providing training on an individual basis through Procurement Forums or small business
training sessions to emphasize compliance with Center policy.

Evaluation of Management’s Response. Management’s comments are responsive to
the recommendation. We consider the recommendation resolved, dispositioned, and
closed for reporting purposes.




                                              10
               Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to determine whether NASA contracting officers
effectively evaluated proposals on cost-type and noncompetitive fixed-price contracts.
We performed the audit at Goddard Space Flight Center (Goddard), Johnson Space
Center (Johnson), and Marshall Space Flight Center (Marshall). Specifically, we
determined whether the contracting officers:

     •   used adequate price and cost analyses in accordance with the Federal Acquisition
         Regulation (FAR) requirements applicable to the procurement action, and

     •   obtained technical analyses needed to adequately evaluate proposed costs.


Scope and Methodology

To accomplish our objectives, we reviewed Federal and NASA policies and procedures
for proposal evaluation, sampled NASA fiscal year (FY) 2000 contract files to determine
whether appropriate policies and procedures were followed, and interviewed key NASA
Headquarters and Center personnel at Goddard, Johnson, and Marshall.

We relied on computer-generated data to achieve our audit objectives. We obtained a list
of contracts awarded in FY 2000 from the NASA Financial and Contractual Status
(FACS) System and a second list of cost-type and fixed-price contracts from the
Acquisition Management System at the three Centers. We reviewed contract files at
Goddard, Johnson, and Marshall. We compared the Centers’ lists to the NASA FACS
list obtained from Headquarters to assure that the universe of contracts was complete.
We selected our sample based on the universe of cost-type and fixed-price contracts at
each Center. We reviewed 40 contracts (totaling $357.5 million) above the FY 2000
threshold of $500,000 for obtaining cost or pricing data. We also reviewed 31 contracts
(totaling $9.7 million) below that threshold. The total value of the 71 contracts reviewed
was $367.2 million. We used the cost or pricing data threshold as a baseline because
cost/price is one of the NASA-required proposal evaluation factors.18 In accordance with
the FAR, the contracting officer shall use a price analysis when cost or pricing data are
not required and shall use a cost analysis to evaluate the reasonableness of individual cost
elements when cost or pricing data are required. Contracting officers also may use a cost
analysis to evaluate information other than cost or pricing data to determine cost
reasonableness. The FAR lists examples of price and cost analysis techniques and
procedures that may be used to ensure a fair and reasonable price.



18
  NASA FAR Supplement 1815.304-70 establishes three evaluation factors: mission suitability,
cost/price, and past performance.


                                                 11
                                                                             Appendix A

Management Controls Reviewed

We reviewed the following management controls related to the proposal evaluation
process:

   •   Agency and Center procedures for evaluating contract proposals, and
   •   FAR, NASA FAR Supplement, Center instructions, and related guidance for
       applicable proposal evaluation policy and procedures.

Management controls need to be strengthened to ensure that Johnson and Marshall
perform adequate technical analyses as required by the FAR (see Finding A) and that
contracting officers ensure that the evaluations completely cover all critical areas. In
addition, Johnson should implement controls to ensure that Johnson contracting officers
comply with the Center instruction for screening small businesses (see Finding B).

Audit Field Work

We performed the audit field work from June 2001 through April 2002 at Goddard,
Johnson, and Marshall. We performed the audit in accordance with generally accepted
government auditing standards.

Prior Audit Coverage

The NASA Office of Inspector General, Department of Defense, and the General
Accounting Office have issued reports on adequate price analysis and price
reasonableness. Related reports are summarized in Appendix C of this report.




                                           12
     Appendix B. Contracts Without Adequate Technical Analyses

We identified the following seven contracts at Johnson Space Center and Marshall Space
Flight Center that were awarded without obtaining documented, complete, and timely
technical analyses (see Finding A).


          Center                  Contract Number                Contract Value

  Johnson Space Flight              NAS9-00060                     $ 814,795
        Center                      NAS9-00090                        921,544
                                    NAS9-00105                        552,536
                                    NAS9-00107                      1,170,000


  Marshall Space Flight             NAS8-00106                      1,024,990
        Center                      NAS8-00202                        532,488
                                    NAS8-00206                      1,270,118

          Total                           7                       $ 6,286,471




                                          13
                Appendix C. Prior Audits and Other Reviews

NASA Office of Inspector General

“NASA Noncompetitive Procurements,” Report Number IG-99-056, September 28,
1999. Technical analyses for 17 of 40 noncompetitive procurement actions reviewed at
Glenn Research Center (Glenn), Goddard Space Flight Center (Goddard), and Johnson
Space Center (Johnson) were inadequate. Technical analysts provided general
statements rather than the required detailed justifications for accepting the proposed types
and quantities of resources. In addition, technical analysts did not document fact-finding
meetings held with contractors to resolve proposal issues. The inadequacies occurred
because the technical analysts had other duties and priorities or did not follow Center
guidance. Therefore, the contracting officer’s ability to develop a sound and supportable
prenegotiation position and to obtain a more favorable award price may have been
weakened. We made three recommendations to NASA relating to contracting officers
obtaining quality technical analyses. Management concurred with all the
recommendations.

U.S. General Accounting Office (GAO)

“Major Management Challenges and Program Risks, National Aeronautics and
Space Administration,” Report Number GAO-01-258, January 1, 2001. GAO cited
contract management as an area at high risk because NASA lacked effective systems and
processes for overseeing contractor activities. Specifically, NASA placed little emphasis
on end results and on controlling costs. GAO continues to categorize contract
management as high risk due to ineffective NASA systems and processes for overseeing
contractor activities. However, GAO also stated that NASA has made progress in
addressing its contract management challenges.

Department of Defense (DOD) Office of Inspector General

“Contracting Officer Determinations of Price Reasonableness When Cost or Pricing
Data Were Not Obtained,” Report Number D-2001-129, May 30, 2001. The
objective of the audit was to determine whether DOD contracting officials obtained
information, in accordance with the Federal Acquisition Regulation, to determine price
reasonableness when certified cost or pricing data were not required, and whether these
reasonableness determinations were adequate. DOD found that contracting officials
lacked valid exceptions from obtaining certified cost or pricing data and failed to obtain
required data in 46 (32 percent) of the 145 contracting actions reviewed. In addition,
price analysis documentation did not adequately support price reasonableness in 124 (86
percent) of those 145 actions.




                                            14
Appendix D. Management’s Response




               15
     Appendix D




16
Appendix D




             17
                      Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight

NASA Centers

GSFC/100/Director, Goddard Space Flight Center
JSC/AA/Director, Lyndon B. Johnson Space Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency




                                         18
                                                                     Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         19
               NASA Assistant Inspector General for Auditing
                              Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: NASA’s Proposal Evaluation Process

Report Number:                               Report Date:


          Circle the appropriate rating for the following statements.
                                            Strongly                                Strongly
                                             Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the           5         4       3          2          1       N/A

   point.
3. We effectively communicated the             5         4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient             5         4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

#   Excellent      #    Fair
#   Very Good      #    Poor
#   Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ________                 No:_______

Name: ____________________________

Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurements Audits

Tony A. Lawson, Program Manager

Mary S. Anderson, Auditor-in-Charge

Amy L. Larkin, Auditor

Lydia C. Lin, Auditor

Theresa Becker, Procurement Analyst

Nancy Cipolla, Report Process Manager

Debra Schuerger, Program Assistant
